     DEPARTMENT OF HEALTH & HUMAN SERVICES                                      Office of Inspector General

                                                                               Washington, D.C. 20201




September 21, 2011


TO:                   Peter Budetti
                      Deputy Administrator and Director
                      Center for Program Integrity
                      Centers for Medicare & Medicaid Services

                      Deborah Taylor
                      Director and Chief Financial Officer
                      Office of Financial Management
                      Centers for Medicare & Medicaid Services


FROM:                 /Brian P. Ritchie/
                      Assistant Inspector General for the
                        Centers for Medicare & Medicaid Audits


SUBJECT:              Medicare Compliance Review of Baystate Medical Center for Calendar
                      Years 2008 and 2009 (A-01-11-00500); and Medicare Compliance
                      Review of University of California, San Francisco, Medical Center for
                      Calendar Years 2008 and 2009 (A-09-11-02034)


Attached, for your information, are advance copies of our final reports for two of our hospital
compliance reviews. We will issue these reports to Baystate Medical Center and the University
of California, San Francisco, Medical Center within 5 business days.

These reports are part of a series of the Office of Inspector General’s hospital compliance
initiative designed to concurrently review multiple issues at individual hospitals. These reviews
of Medicare payments to hospitals examine selected claims for inpatient and outpatient services.
The two attached reports are the fourth and fifth reports issued in this initiative.

If you have any questions or comments about these reports, please do not hesitate to contact me
at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or your staff may contact the
respective Regional Inspectors General for Audit Services:

Baystate Medical Center
Michael J. Armstrong, Regional Inspector General for Audit Services, Region I
(617) 565-2689, email - Michael.Armstrong@oig.hhs.gov
Page 2 – Peter Budetti, Deborah Taylor


University of California, San Francisco, Medical Center
Lori A. Ahlstrand, Regional Inspector General for Audit Services, Region IX
(415) 437-8360, email – Lori.Ahlstrand@oig.hhs.gov


Attachment


cc:
Jacquelyn White, Director
Office of Strategic Operations and Regulatory Affairs
Centers for Medicare & Medicaid Services
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                          Room 2425
                                                                          Boston, MA 02203
September 26, 2011

Report Number: A-01-11-00500

Mr. Peter A. Lyons
Vice President, Finance Support Services
Baystate Health System
280 Chestnut Street
Springfield, MA 01199

Dear Mr. Lyons:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of Baystate Medical Center
for Calendar Years 2008 and 2009. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact David Lamir, Audit Manager, at (617) 565-2704 or through email at
David.Lamir@oig.hhs.gov. Please refer to report number A-01-11-00500 in all correspondence.


                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Peter A. Lyons


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




    MEDICARE COMPLIANCE
 REVIEW OF BAYSTATE MEDICAL
CENTER FOR CALENDAR YEARS
      2008 AND 2009




                       Daniel R. Levinson
                        Inspector General

                        September 2011
                         A-01-11-00500
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

Baystate Medical Center (the Hospital) is a 659-bed acute care hospital located in Springfield,
Massachusetts. The Hospital was paid approximately $397 million for 28,542 inpatient and
415,255 outpatient claims for services provided to Medicare beneficiaries during calendar years
(CY) 2008 and 2009 based on CMS’s National Claims History data.

Our audit covered $3.5 million in Medicare payments to the Hospital for 86 inpatient and 102
outpatient claims that we identified as potentially at risk for billing errors. These 188 claims had
dates of service in CYs 2008 and 2009.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 138 of the 188 claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for



                                                 i
selected inpatient and outpatient claims. Specifically, of the 188 claims, 50 claims had errors,
resulting in overpayments totaling $325,120 for CYs 2008 and 2009. Overpayments occurred
primarily because the Hospital did not have adequate controls to prevent the incorrect billing of
Medicare claims and did not fully understand Medicare billing requirements.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $325,120, consisting of $282,455 in overpayments for
       23 incorrectly billed inpatient claims and $42,665 in overpayments for 27 incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

BAYSTATE MEDICAL CENTER COMMENTS

In written comments on our draft report, the Hospital concurred with our findings and
recommendations. The Hospital’s comments are included in their entirety as the Appendix.




                                                ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ...........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         Baystate Medical Center ................................................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Inpatient Short Stays ......................................................................................................6
          Inpatient Same-Day Discharges and Readmissions .......................................................6
          Inpatient Claims With Payments Greater Than $150,000 .............................................7
          Inpatient Manufacturer Credits for Replaced Medical Devices ....................................7

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................7
          Outpatient Manufacturer Credits for Replaced Medical Devices ..................................7
          Outpatient Claims Paid in Excess of Charges................................................................8
          Outpatient Claims Billed During Inpatient Stays ..........................................................8
          Outpatient Evaluation and Management Service Claims Billed With
             Surgical Services .....................................................................................................9

      RECOMMENDATIONS .......................................................................................................9

      BAYSTATE MEDICAL CENTER COMMENTS ...............................................................9


APPENDIX

             BAYSTATE MEDICAL CENTER COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 2 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. 3 All services and items within an APC
group are comparable clinically and require comparable resources.



1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
requires CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.
2
    In 2009, SCHIP was formally redesignated as the Children’s Health Insurance Program.
3
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                         1
Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. The types of payments to hospitals reviewed by this and related audits
included payments for claims billed for:

    • inpatient same-day discharges and readmissions,

    • inpatient short stays,

    • inpatient claims paid in excess of charges,

    • inpatient claims with payments greater than $150,000,

    • outpatient claims billed during an inpatient stay,

    • outpatient evaluation and management service claims billed with surgical services,

    • outpatient claims billed with modifier -59,

    • outpatient claims paid in excess of charges, and

    • outpatient and inpatient manufacturer credits for replaced medical devices.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for diagnosing or treating illness or injury or for
improving the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may



                                                   2
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

Baystate Medical Center

Baystate Medical Center (the Hospital) is a 659-bed acute care hospital located in Springfield,
Massachusetts. Medicare paid the Hospital approximately $397 million for 28,542 inpatient and
415,255 outpatient claims for services provided to beneficiaries during calendar years (CY) 2008
and 2009 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $3,533,077 million in Medicare payments to the Hospital for 86 inpatient and
102 outpatient claims that we identified as potentially at risk for billing errors. These 188 claims
had dates of service in CYs 2008 and 2009.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We based our review on selected billing requirements and did
not include a focused medical review to determine whether the services were medically
necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review enabled us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from January through March 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;




                                                 3
   •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
       Claims History file for CYs 2008 and 2009;

   •   obtained information on known credits for replacement cardiac medical devices from
       selected device manufacturers for CYs 2008 and 2009;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected a judgmental sample of 188 claims (86 inpatient and 102 outpatient) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 138 of the 188 claims we
reviewed. However, the Hospital did not fully comply with Medicare billing requirements for
selected inpatient and outpatient claims. Specifically, of the 188 claims, 50 claims had billing
errors that resulted in overpayments totaling $325,120 for CYs 2008 and 2009. Overpayments
occurred primarily because the Hospital did not have adequate controls to prevent the incorrect
billing of Medicare claims and did not fully understand Medicare billing requirements.



                                                4
Of 86 sampled inpatient claims, 23 claims had billing errors resulting in overpayments totaling
$282,455:

   •   For inpatient claims with short stays, the Hospital incorrectly billed Medicare for
       inpatient stays that lacked valid physician orders to admit beneficiaries for inpatient care,
       should have been billed as outpatient observation hours, or had a miscoded DRG (13
       claims totaling $148,193 in overpayments).

   •   For inpatient claims with same-day discharges and readmissions, the Hospital billed
       Medicare separately for related discharges and readmissions within the same day (eight
       errors totaling $110,371 in overpayments).

   •   For inpatient claims with payments greater than $150,000, the Hospital billed Medicare
       for an incorrect DRG (one error resulting in a $19,496 overpayment).

   •   For inpatient claims involving manufacturer credits for replaced medical devices, the
       Hospital did not properly report a device credit received from a manufacturer on its
       Medicare claim (one error resulting in a $4,395 overpayment).

Of 102 sampled outpatient claims, 27 claims had billing errors, resulting in overpayments
totaling $42,665:

   •   For outpatient claims involving manufacturer credits for replaced medical devices, the
       Hospital did not properly report device credits received from manufacturers on its
       Medicare claims (12 errors totaling $36,547 in overpayments).

   •   For outpatient claims paid in excess of charges, the Hospital submitted claims to
       Medicare with incorrect HCPCS codes (two errors totaling $4,777 in overpayments).

   •   For outpatient claims billed during an inpatient stay, the Hospital incorrectly billed
       Medicare Part B for outpatient services provided during inpatient stays that should have
       been included on the Hospital’s inpatient (Part A) bills to Medicare (12 errors totaling
       $1,265 in overpayments).

   •   For outpatient evaluation and management service claims billed with surgical services,
       the hospital incorrectly billed Medicare for a service that was not documented in the
       medical record (one error resulting in a $76 overpayment).

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 23 of 86 sampled inpatient claims that we reviewed.
These errors resulted in overpayments totaling $282,455.




                                                 5
Inpatient Short Stays

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for diagnosing or treating illness or injury or for
improving the functioning of a malformed body member.” Section 1814(a)(3) of the Act states
that payment for services furnished to an individual may be made only to providers of services
that are eligible and only if, “with respect to inpatient hospital services ... which are furnished
over a period of time, a physician certifies that such services are required to be given on an
inpatient basis for such individual’s medical treatment ….”

The Manual, chapter 1, section 80.3.2.2, requires that claims be completed accurately to be
processed correctly and promptly.

For 13 of 30 sampled claims, the Hospital incorrectly billed Medicare Part A for inpatient claims
that lacked a valid physician’s order in the medical record to admit beneficiaries to inpatient care
(10 errors), incorrectly billed Medicare Part A for beneficiary stays that should have been billed
as outpatient services (2 errors), and billed with an incorrect DRG (1 error).

The inpatient claims we identified as lacking physician orders contained “bed reservations,”
which, according to the Hospital, represented physician orders. We reviewed the “bed
reservation” documentation provided to us and found that these reports did not meet the criteria
of a physician order (i.e., physician signature) to admit patients to inpatient status. The Hospital
subsequently agreed and has implemented a Web-based training program for physicians on
proper inpatient admitting procedures. Two claims were billed as inpatient services, but should
have been billed under outpatient observation status. The remaining claim involved an incorrect
DRG assignment, resulting from an erroneously applied procedure code. The Hospital agreed
with the status of these three claims. As a result of these errors, the Hospital received
overpayments totaling $148,193.

Inpatient Same-Day Discharges and Readmissions

The Manual, chapter 3, section 40.2.5, states:

       When a patient is discharged/transferred from an acute care Prospective Payment System
       (PPS) hospital, and is readmitted to the same acute care PPS hospital on the same day for
       symptoms related to, or for evaluation and management of, the prior stay’s medical
       condition, hospitals shall adjust the original claim generated by the original stay by
       combining the original and subsequent stay on a single claim.

For 8 out of 16 sampled claims, the Hospital billed Medicare separately for related discharges
and readmissions within the same day. In each of these instances, the original claim and the
claim(s) involving subsequent readmission were related to the same medical condition(s) and
should have been billed as a continuous stay. However, in each of these cases, the Hospital did
not adjust the original claim by combining the original and subsequent stays onto a single claim.
These errors occurred because the Hospital did not have an additional level of review in place to




                                                 6
determine whether the stays were related. As a result of these errors, the Hospital received
overpayments totaling $110,371.

Inpatient Claims With Payments Greater Than $150,000

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

For one out of six sampled claims, the Hospital billed Medicare with an incorrect DRG. For this
claim, the Hospital stated that it included an erroneous surgical procedure code that resulted in
the inaccurate DRG. This error occurred because of a lack of proper oversight of coding/billing
decisions. As a result of this error, the Hospital received overpayments totaling $19,496.

Inpatient Manufacturer Credits for Replaced Medical Devices

Federal regulations (42 CFR § 412.89) require reductions in the inpatient prospective payment
for the replacement of an implanted device if (1) the device is replaced without cost to the
provider, (2) the provider receives full credit for the cost of a device, or (3) the provider receives
a credit equal to 50 percent or more of the cost of the device.

The Manual, chapter 3, section 100.8, states that to bill correctly for a replacement device that
was provided with a credit, the hospital must code its Medicare claims with a combination of
condition codes 49 or 50 along with value code “FD.”

For one of the four sampled claims, the Hospital received a reportable medical device credit for a
replaced cardiac pacemaker from a manufacturer. However, the Hospital did not adjust its
inpatient claim with the proper value and condition codes to reduce payment as required. This
error was due to the Hospital’s lack of controls to report the appropriate billing codes. As a
result, the Hospital received an overpayment of $4,395.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 27 of 102 sampled outpatient claims, which resulted
in overpayments totaling $42,665.

Outpatient Manufacturer Credits for Replaced Medical Devices

Federal regulations (42 CFR § 419.45) require reductions in the OPPS payments for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and in the Manual explains how a
provider should report no-cost and reduced-cost devices under the OPPS. For services furnished
on or after January 1, 2007, CMS requires the provider to report the modifier “FB” and reduced



                                                   7
charges on a claim that includes a procedure code for the insertion of a replacement device if the
provider incurs no cost or receives full credit for the replaced device. If the provider receives a
replacement device without cost from the manufacturer, the provider must report a charge of no
more than $1 for the device (the Manual, chapter 4, section 61.3.1). If the provider receives full
credit from the manufacturer for a replaced device that is less expensive than the replacement
device, the provider must report a charge that represents the difference between its usual charge
for the device being implanted and its usual charge for the device for which it received credit
(the Manual, chapter 4, section 61.3.2).

For services furnished on or after January 1, 2008, CMS requires the provider to report the
modifier “FC” on a claim that includes a procedure code for the insertion of a replacement
device if the provider receives a credit from the manufacturer of 50 percent or more of the cost of
the replacement device. Partial credits for less than 50 percent of the cost of a replacement
device need not be reported with any modifier.

For 12 out of 24 sampled claims, the Hospital did not comply with Medicare requirements for
reporting the appropriate billing codes and charges to reflect the credits it received from medical
device manufacturers. Specifically, for nine of these claims, the Hospital received full credits
from manufacturers but used the partial credit modifier “FC” to report the credit on its claim
instead of the appropriate full credit “FB” modifier. For the remaining three claims, the Hospital
received full credits from manufacturers but did not report the required “FB” modifier nor reduce
its charges on the claims. In these instances, the Hospital misunderstood the Medicare billing
requirements for device credits. As a result of these errors, the Hospital received overpayments
totaling $36,547.

Outpatient Claims Paid in Excess of Charges

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1, section
80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”

For 2 out of 19 sampled claims, the Hospital submitted claims to Medicare with incorrect
HCPCS codes. For example, for one claim, the Hospital billed for shoulder arthroscopy while
the patient’s medical records showed knee arthroscopy. The Hospital attributed these errors to
clerical oversights. As a result of these errors, the Hospital received overpayments totaling
$4,777.

Outpatient Claims Billed During an Inpatient Stay

The Manual, chapter 3, section 10.4, states that certain items and nonphysician services
furnished to inpatients are covered under Part A and consequently are covered by the inpatient
prospective payment rate.

For 12 out of 15 sampled claims, the Hospital incorrectly billed Medicare Part B for outpatient
services provided during inpatient stays that should have been included on the Hospital’s



                                                 8
inpatient (Part A) bills to Medicare. Most of these outpatient claims billed in error were for
laboratory, chemotherapy, audiology, and radiology services. The Hospital attributed these
errors to its patient accounting system, which was not designed to identify outpatient charges
entered after the Hospital submitted the inpatient claim to Medicare. As a result, the Hospital
received overpayments totaling $1,265.

Outpatient Evaluation and Management Service Claims Billed With Surgical Services

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1, section
80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”

For 1 out of 18 sampled claims, the Hospital incorrectly billed Medicare for an outpatient
evaluation and management service that was not documented in the medical record. The Hospital
attributed this overpayment to a clerical error. As a result of this error, the Hospital received an
overpayment of $76.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $325,120, consisting of $282,455 in overpayments for
       23 incorrectly billed inpatient claims and $42,665 in overpayments for 27 incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

BAYSTATE MEDICAL CENTER COMMENTS

In written comments on our draft report, the Hospital concurred with our findings and
recommendations. The Hospital’s comments are included in their entirety as the Appendix.




                                                 9
APPENDIX
                                              APPENDIX: BA YSTA n : MEDICAL CENTER COMMENTS                                                      Page I of2

                                                                                                                      Sent Via Certifi ed Mail



  Baystate
Medical Center
   I I l<:wl • .,..,[Il;r,:</;II,·lh' .11111 b~slt~"
Fi llrln~li chl. i\ laSI;;tc hlls ~:Us      III I !)!)
               ·11:l-7!14-011nll


                           August 11,2011

                           Michael 1. Armstrong
                           Regional Inspector General for Audit Services
                           Department of Health & Human Services
                          Office of Inspector General, Office of Audit Services, Region I
                          John F. Kennedy Federal Building
                          Boston, MA 02203

                          Re: Report Number A-01-ll-00500

                          Dear Mr. Armstrong:

                          Baystate Medical Center (BMC) has received a draft report from the Department of
                          Health & Human Services, Office of the Inspector General entitled, "Medicare
                          Compliance Review 0/ Bays/ate Medical Center for Calendar Years 2008 and 2009 ",
                          Baystate Medical Center has had an opportunity to review the report and is in general
                          agreement with the findings.

                         As the report states, the OIG originally selected for review certain inpatient and
                         outpatient claims submined by BMC fo r dates of services January 1,2008 through
                         December 31,2009, covering ten audit areas. Eighty-six inpatient and 102 outpatient
                         claims were reviewed and 23 inpatient and 27 outpatient claims errors were identified.
                         The auditors concluded that BMC had received $325,120 in overpayments for calendar
                         years 2008 and 2009 and recommends that these accounls are refunded 10 the Medicare
                         contractor.

                         BMC conc urs with the OIG's findings regard ing the overpayments and has begun
                         rebilling claims as appropriate. To date $146,835.44 has been refunded and the remaining
                         refunds are being processed.

                         In addition the OIG recommends that BMC strengthen controls aimed at reducing the risk
                         of these types of errors from occurring in the future.

                                 • 	 Beginning in fiscal year 201 0, Baystate Medical Center had performed audits on
                                     inpatient stays and identified the problem with inpalient one day stays. We had
                                     found most of the problems happened on weekends and holidays. Corrected
                                     rebilling has taken place for short inpatient stays identified during our internal
                                     audit process. Our Case Management Department put changes in place to correct




                                                         Th e Wes/crn Cmll/lus 01 ?tIlts University 8rll001 III lll'tliriflf'
                                                                                           Pag.2or2



August 11 ,2011 

Page 2 

Re: Report Number A-O 1-1 1-00500 



        the process and updated their policies and procedures. These processes and procedures
        are reviewed annually in coordination with eMS rules and regulations.

    • 	 The OIG identified inpatients with same day discharges and readmissions. We have
        created a new report to identify these types of inpatients. The Patient Accounting and
        Health Inform ation Management departments have established a process fo r the
        evaluation of the inpatient discharge and readmission on the same day. This process is
        working and accounts are being reviewed by HeaJth Information Management and
        Patient Accounting prior to billing.

    • 	 One inpatient claim paid in excess 0[$150,000 with an incorrect ORO was identified by
        the OIG. Th is particular account was a high ly unusual case for BM C. Education and
        training to coders is in place and is an ongoing fun ction within Health Info rmation
       Management.

    • 	 With respect to inpatient and outpatient claims involving manufacturer credits for
        medical devices, the hospital relied on the device vendors for devi ce credits. BMC has
        since changed its internal process and initiated a tracking system of the original device
        and replacement devices to properly detennine any credit. A new procedure is in place
        to make sure correct value and condition codes and modifiers are included on claims
        when a credit is received.

    • 	 Outpatient claims with incorrect HepCS on two claims and one claim with incorrect
        modifier 25 were identified. The Health Information Management department has
        implemented reviews for education and training with coders.

    • 	 The DIG found outpatient claims billed during ORG payment windows. BMC
        discovered a problem with our internal reports that identified charges within the 72 hour
        window but missed charges during the inpati ent stay that were incorrectly charged and
        billed as outpatient. Patient Accounting has implemented a new process to identify and
        correct any related outpatient charges during an inpatient stay.

BMC wil1 continue to monitor all of the audited areas and will update its controls as necessary.

BMC takes it compliance obligations very seriously. Please feel free to call me if you have any
questions about the hospital 's effort in this regard or if you require additional infonnatioll.



sm#1f 4~
Peter A. Lyons
Vice President, Finance Support Services
